No.
IN THE

6upreme Court of tije Entteb 6tate5
GERSON IRVING Fox,
v.

Petitioner,
ELISSA MILLER, CHAPTER 7 TRUSTEE
Respondent.
On Petition For A Writ Of Certiorari To The
United States Court Of Appeals For The Ninth
Circuit
PETITION FOR A WRIT OF CERTIORARI
GERSON I. Fox
337 S. Roxbury Drive
Beverly Hills, California
90212
In Propria Persona

QUESTION PRESENTED
Upon proof of failure to keep adequate books and
records, a debtor's discharge may be withheld under
section 727(a)(3) of the Bankruptcy Code unless the
debtor shows in response that recordkeeping was
"justified under all of the circumstances." The provision has led to wildly inconsistent decisions.
The question presented is whether a justification
for recordkeeping "under all of the circumstances,"
where supported by competent, admissible evidence,
may be weighed and overruled on summary judgment?

ii
PARTIES TO THE PROCEEDING
Petitioner in this Court, Defendant-Appellant below, is Gerson Irving Fox.
Respondent in this Court, Plaintiff-Appellee below, is Elissa D. Miller, in her capacity as Chapter 7
Trustee of the bankruptcy estate of Gerson Irving
Fox.

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED
PARTIES TO THE PROCEEDING
PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW
JURISDICTION
STATUTORY PROVISIONS INVOLVED
STATEMENT
REASONS FOR GRANTING THE PETITION
THE DECISION BELOW DEEPENS
A SPLIT AMONG THE LOWER
COURTS.
THIS CASE PRESENTS A
RECURRING QUESTION OF
EXCEPTIONAL IMPORTANCE.
CONCLUSION

ii
1
1
1
1
2
8

10

14
18

iv
TABLE OF AUTHORITIES
Page
Federal Cases
Bailey v. Ogden (In re Ogden),
1999 Bankr. LEXIS 437, 16 Colo Bankr Ct Rep 98
(10th Cir. B.A.P. 1999)
14
Cadle Co. v. Preston-Guenther (In re Guenther),
333 B.R. 759 (Bankr. N.D. Tex. 2005)

15

Grogan v. Garner,
498 U.S. 279, 111 S. Ct. 654, 112 L. Ed. 2d 755
(1991)
18
Harrington v. Simmons (In re Simmons),
810 F.3d 852 (1st Cir. 2016)

12

In re Juzwiak,
89 F.3d 424 (7th Cir. 1996)

16

In re Leichter,
197 F.2d 955 (3d Cir. 1952) cert. denied, 344 U.S.
2
914, 73 S. Ct. 336, 97 L. Ed. 705 (1953)
In re Oesterle,
651 F.2d 401 (5th Cir. 1981)

16

Mercantile Peninsula Bank v. French (In re French),
499 F.3d 345 (4th Cir. 2007)
13
Meridian Bank v. Alten,
958 F.2d 1226 (3d Cir. 1992)

15

Nisselson v. Wolfson,
139 B.R. 279 (Bankr. S.D.N.Y. 1992)
Peterson v. Scott (In re Scott),
172 F.3d 959 (7th Cir. 1999)

15

3

Protos v. Silver (In re Protos),
322 Fed. Appx. 930 (11th Cir. 2009)

12

Strzesynski v. Devaul (In re Devaul),
318 B.R. 824 (Bankr. N.D. Ohio 2004)

15

Taunt v. Patrick (In re Patrick),
290 B.R. 306 (Bankr. E.D. Mich. 2003)

16

Turoczy Bonding Co. v. Strbac (In re Strbac),
235 B.R. 880 (B.A.P. 6th Cir. 1999)

16

Williams v. United States Fid. & Guar. Co.,
236 U.S. 549, 35 S. Ct. 289 (1915)

2

Federal Statutes
11 U.S.C. § 727

17

11 U.S.C. § 727(a)

2

11 U.S.C. § 727(a)(11)

2

11 U.S.C. § 727(a)(12)

2

11 U.S.C. § 727(a)(2)

2

11 U.S.C. § 727(a)(3)

passim

11 U.S.C. § 727(a)(4)

2

vi

11 U.S.C. § 727(a)(5)

2

11 U.S.C. § 727(a)(6)

2

11 U.S.C. § 727(a)(7)

2

28 U.S.C. § 1254(1)

1

Rules
Fed. R. Civ. P. 12(b)(6)

4

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully submits this petition for a
writ of certiorari to review the judgment of the United States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the court of appeals affirming the
district court has not been published, but is available
at 786 Fed. Appx. 688. Pet. App. A, infra. The district court's order denying appeal is reported at 589
B.R. 659. Pet. App. B, infra. The Summary Judgment entered by the United States Bankruptcy Court
for the Central District of California (November 1,
2017) is unreported. Pet. App. C, infra.
JURISDICTION
The court of appeals filed its opinion on November 29, 2019. The jurisdiction of this Court is in'yoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Section 727(a)(3) of title 11 of the United States
Code (the "Bankruptcy Code") states:
(a) The court shall grant the debtor a discharge, unless—
(3) the debtor has concealed, destroyed,
mutilated, falsified, or failed to keep or preserve
any recorded information, including books, documents, records, and papers, from which the
debtor's financial condition or business transactions might be ascertained, unless such act or
failure to act was justified under all of the circumstances of the case;

2
STATEMENT
Section 727(a) of the Bankruptcy Code states
that a bankruptcy court "shall grant the debtor a discharge" unless an enumerated ground for denial of
discharge is proven. The Chapter 7 discharge is at
the heart of the fresh start provisions of bankruptcy
law that "relieve the honest debtor from the weight of
oppressive indebtedness and permit him to start
afresh free from the obligations and responsibilities
consequent upon business misfortunes." Williams v.
United States Fid. & Guar. Co., 236 U.S. 549, 554-55,
35 S. Ct. 289, 290 (1915).
Interpretation of section 727(a) is of exceptional
and recurring social importance. In 2019 alone, at
least 469,464 individuals applied for Chapter 7 relief.1 In 2011, 958,634 individuals did.2
A preponderance of the enumerated grounds for
denying a discharge involve contumacious misconduct that directly interferes with the orderly administration of a bankruptcy case (§§ 727(a)(2), (3), (4),
(5), (6), (7) & (11)). Several require fraudulent intent
(§§ 727(a)(2), (4) & (12)). The grounds for denial are
to be "construed strictly as against the objector and
liberally in favor of the bankrupt." In re Leichter, 197
F.2d 955, 959 (3d Cir. 1952) cert. denied, 344 U.S.
914, 73 S. Ct. 336, 97 L. Ed. 705 (1953).

1 As reported by the Administrative Office of the United
States Courts (https://www.uscourts.gov/sites/default/files/data
tables/bf f2 1231.2019.pdf)
2 See https://www.uscourts.gov/sites/default/files/statistics imp
ort dir/F02Dec11.ndf

3
Section 727(a)(3), which is at issue here, permits
denial of discharge for various willful acts that prevent creditors from obtaining a clear picture of a
debtor's financial condition or pre-bankruptcy business transactions (i.e. the concealment, destruction,
mutilation or falsification of records). The denial of
petitioner's discharge, however, was not predicated
on any of these acts, but rather on his purported failure to "keep" certain books and records that he never
had. "Keeping' in the context of section 727(a)(3) has
been widely interpreted as having "the same meaning it would have in phrases such as 'to keep a diary'
or 'to keep a record,' that is, to maintain a record by
entering it in a book." Peterson v. Scott (In re Scott),
172 F.3d 959, 969 (7th Cir. 1999).
Petitioner, now ninety-three (93) years old, was
eighty-eight (88) at the time of filing for bankruptcy
protection and in declining health. He was not in a
fit enough physical condition to "keep" records and
had not been for several years. In the four and a half
years prior to filing bankruptcy, he had also been
mired in legal battles stemming from the collapse of
a real estate company in which he was heavily invested (supposedly as a passive investor with limited
exposure). Records of the most significant transactions from that time were all in the hands of lawyers
defending his interests against a dishonest business
partner, bankruptcy trustees and receivers that took
control of assets he co-owned, and large institutional
creditors that looked to petitioner for payment when
they were burned by the aforementioned business
partner.
By 2015, petitioner had been wiped out financially, and the full procedural history of how he got
there, was extremely convoluted. Creditors started

4
obtaining writs of attachment and clearing out his
bank accounts in 2011, resulting in all accounts being closed other than the account into which his social security payments were deposited. In 2013, all
of his interests in real estate partnerships and limited liability companies were liquidated at foreclosure sales. Any assets that were not subject to immediate execution and liquidation, such as distributions he was owed from bankruptcy cases, were subject to creditor liens. He filed bankruptcy because
one creditor was on the verge of having a receiver
appointed over him personally, one who would have
had the keys to his house and the power to open his
mail—a development that would have robbed petitioner of all dignity and privacy.
In May 2016, at a time when she was threatening a lawsuit against petitioner's son, respondent
commenced an adversary proceeding against petitioner to deprive him of his Chapter 7 discharge. The
original complaint was 194 paragraphs in length and
included multiple claims of intentional and fraudulent conduct. However, one by one, these claims of
intentional misconduct were either dismissed under
Rule 12(b)(6) or abandoned and voluntarily dismissed by respondent due to lack of evidence and her
inability to develop supporting evidence despite best
efforts. In September 2017, respondent filed a motion for summary judgment on the only claim left
standing in her complaint—her objection to discharge under section 727(a)(3). In opposition to respondent's motion, petitioner submitted evidence of
the following
That he had a heart attack in 2004 and has been
in deteriorating health since then (Pet. App. D,
infra. at ¶ 2);

5
That he has had a series of mini-strokes since
2004 (Id.);
That he has had cardiovascular disease for years,
a pacemaker inserted, as well as severe diabetes
mellitus and sleep apnea, affecting his hearing,
vision and mobility (Id.);
That he has been in and out of hospital for the
last several years, has been bed-ridden since
February 2016, is unable to walk, and has several caregivers that take care of him on a full-time
basis (Id. at Ifif 2-3);
That he became licensed as a CPA in the 1950s,
briefly practiced, but has not practiced accounting in almost 60 years (Id. at ¶ 4);
That he was admitted to the California State Bar
in 1958 without having graduated law school,
but never practiced law (Id. at ¶ 4);
That he ran a jewelry company called Barry's
Jewelers for most of his career, but sold his interest in 1995 and effectively retired at that time
(Id. at 11 5);
That after retiring he invested in various real estate projects with an individual named Michael
Kamen, who he had known for 25 years and believed was a friend (Id. at ¶ 6);
That he was "robbed blind" by Kamen over the
course of several years, which escalated after petitioner began to experience health issues (Id. at
¶ 7);
That most of his communications with Kamen
were oral discussion and his deals were made "on
a handshake" as was petitioner's custom and

6
practice with his prior business partner at Barry's Jewelers (Id. at ¶ 6);
That Kamen did not provide him with financials
or accountings for the various real property investments they had (Id.), and the documentation
he did receive later proved to be unreliable (Id. at
7-11);
That he retained counsel to assist with investigation of Kamen's fraud in 2011 and uncovered
numerous instances of forged guaranties (Id.) ;
That several of the real-estate holding entities he
co-owned filed bankruptcy around that time and
a trustee was appointed (Id. at ¶ 12);
That the trustee, who was respondent's law
partner, never provided him with financials or
accountings and petitioner could not have provided them to respondent (Id.);
That virtually all of his assets were sold off involuntarily by one of his creditors at foreclosure
sales in 2013 (Id. at ¶ 13);
That he has not received any salary or compensation from work for many years (Id. at ¶ 14);
That he was unable to have tax returns prepared
for 2013 due to a lack of income and continuing
poor health, and because he would have owed no
taxes due to the sizeable net operating losses he
experienced (Id. at ¶ 14)3;
That he was not able to provide respondent with
every document she had requested, but that he
gave her everything he had (Id. at ¶ 16);

3 Tax returns for 2014 were not yet due when he filed bankruptcy

7
That he had given many documents to attorneys
and accountants defending his interests in the
years before his bankruptcy and lost track of
them (Id. at ¶ 17);
That he provided the trustee with all of the documents in his personal possession as well as documents from his tax preparer and former attorneys (Id. at ¶ 18);
That he was confident any missing pieces of information could be obtained from the bankruptcy
professionals (including respondent's law partner) administering the estate of his former business partners or the various entities he had coowned that filed bankruptcy (Id. at ¶ 16).
This evidence was more than adequate to justify
the state of petitioner's books and records when he
filed bankruptcy in 2015. Petitioner has been retired
20 years at the time of his filing and was simply not
involved in the creation of most of the records requested. Whatever he had retained he provided respondent but he could not provide what he never had
and, due to his declining health and serious legal
problems in the years leading up to the filing, others
were more involved and had the records.
Certainly, whether or not the Bankruptcy Court
ultimately chose to credit these reasons justifying his
recordkeeping at trial, they should have at least been
sufficient to defeat a motion for summary judgment.
But instead, petitioner was improperly denied the
opportunity to present his side of the story clearly in
a procedurally fair manner.
That is what is at stake: petitioner's right, and
the right of millions of Chapter 7 debtors that will
come after him, to have their day in court on the is-

8
sue of why their recordkeeping is justified. Given the
legal and social importance of the Chapter 7 discharge, all debtors, including petitioner, must have
the right to testify in their own defense as to their
recordkeeping practices, and to call witnesses and
submit documents that corroborate their justifications for any alleged or perceived inadequacies. The
Bankruptcy Court incorrectly determined that it
could and should disregard all of the explanations
put forward by petitioner, determine that his recordkeeping was inadequate and unjustified as a matter
of law, and take away his discharge without him ever
setting foot inside a courtroom. That was and is
wrong. The Ninth Circuit saw no issue with the
Bankruptcy Court doing that, whereas other circuits
have taken a vastly different approach, one that respects the Congressional presumption in favor of
granting a discharge and correctly applies touchstone
summary judgment standards to section 727(a)(3).
The Court should accept certiorari to determine
which Circuit's interpretation is correct. If the
Fourth Circuit approach is correct, petitioner has the
right to a trial, and the opportunity to fully present
his case at that trial.
REASONS FOR GRANTING THE PETITION
The Ninth Circuit's decision deepens a split
among the lower courts over the propriety of evaluating a debtor's recordkeeping justifications on summary judgment. In the Ninth, First, and Eleventh
Circuits, it is fair game for a bankruptcy court to disregard a debtor's proffered justifications for recordkeeping and summarily deny a discharge notwithstanding (1) the strong public policy in favor of granting a discharge, (2) the well-established principle

9
that discharge exceptions should be construed liberally in favor of debtors and strictly against the objector, and (3) the even better established principle that
a court should not weigh evidence on summary
judgment. In the Fourth and Tenth Circuits, it is
correctly recognized that the debtor's burden to show
that recordkeeping is "justified under all of the circumstances of the case" is a highly fact-sensitive inquiry that is generally not susceptible to, resolution
on summary judgment.
This split of authority impacts hundreds of thousands of debtors who file Chapter 7 bankruptcy every
year. Individuals seeking Chapter 7 relief have typically lost control of their lives in some respect and
disorganized paperwork is an inevitable reality. The
type of person most in need of Chapter 7 protection
(e.g. underinsured individuals overwhelmed with
medical debt or individuals affected by opioid addiction) will not have maintained meticulous books and
records a high percentage of the time. A bankruptcy
court depriving that person of a discharge under section 727(a)(3) summarily (and undercutting the entire reason for filing Chapter 7) is not, as a practical
matter, considering the debtor's justification "under
all of the circumstances of the case." It is considering
only those facts and arguments that have been presented in a motion prepared by an adversary with
greater resources typically, in response to which the
debtor may have needed to address multiple issues or
correct multiple mischaracterizations, all without
knowing whether the court would even reach the issue of justification. Unless a debtor is asserting no
justification whatsoever and conceding the issue,
there should, as a rule, be a hearing where the debtor's evidence of justification can be fully presented.

10
The plain meaning of the words "all of the circumstances of the case" and the contextual importance of
the discharge to the entire Chapter 7 framework
make this the only proper interpretation of section
727(a)(3).
I. THE DECISION BELOW DEEPENS A SPLIT
AMONG THE LOWER COURTS.

The Ninth Circuit decision in this case—in the
portion of the opinion discussing the adequacy of
recordkeeping—erroneously adopted highly contested
characterizations of petitioner's business sophistication, the complexity of his financial affairs prebankruptcy, and the extent to which he was defrauded by his former business partner, stating that petitioner "is an attorney, a Certified Public Accountant,
and operated a successful business for decades... had
extensive and complicated financial investments...
[and] should have been able to produce more fulsome
financial records than what he provided the trustee."
(786 Fed. Appx. 688, 688-689.)
The fact that petitioner qualified as an accountant and as a lawyer in the 1950s but never practiced
has no bearing on whether his books and records
were adequate. Couching the thin analysis of the
recordkeeping itself with these value judgments
about the debtor merely shows that the Ninth Circuit
conflated the first and second prongs of the section
727(a)(3) analysis and failed to give petitioner the
benefit of every favorable inference.
On the issue of justification specifically, the
Ninth Circuit's analysis was disappointingly glib.
The full extent of the analysis was as follows:
Fox argues he was unable to produce
the records of the investments handled

11
by his former business partner because
that business partner defrauded Fox
and never provided Fox with any relevant records. But even if that is true,
many of the documents Fox failed to
produce had no connection to his former
business partner. Thus, the fact that
Fox's former business partner might
have withheld certain categories of records from Fox does not excuse Fox's
failure to maintain records across the
board.
Fox also argues his age and a variety of
physical ailments justified the lack of
records. But Fox's counsel specifically
disclaimed this justification before the
bankruptcy court. And Fox does not explain why his age and physical ailments
rendered him unable to file tax returns
or maintain sufficient records to allow
the trustee to assess his financial condition. Other individuals in similar circumstances would have far more records
than what Fox maintained.
Id. at 689
The first of these two paragraphs misstates the
nature of petitioner's justifications, and then dismisses the misstated justifications as being too general and inadequate to explain the absence of certain
specific records without discussing what specific records the justifications do not account for, or how
those records would have furthered the understanding of petitioner's financial condition. The second
paragraph takes a statement made at the bankrupt-

12
cy court hearing out of context, ignores petitioner's
testimony for why he did not file one year of tax returns, and then conflates the first and second prong
again. It improperly puts the burden on petitioner to
explain why his records did not allow respondent to
assess petitioner's financial condition in circumstances where respondent's foundational showing
that it was impossible for her to do so had not been
made, or certainly not made with the type of specificity and intelligibility that would enable petitioner to
rebut the arguments. Moreover, the analysis ignores
the testimony petitioner offered that does explain his
financial condition, including the easily verifiable
fact that all of his assets were involuntarily sold from
under him at foreclosure sales in 2013.
Moreover, petitioner had no business other than
his investments with Michael Kamen since 1995,
meaning that the Ninth Circuit's statement "many of
the documents that Fox failed to produce had no connection to his former business partner" is a dubious
assertion. The further assertion that he had a "lack
of records" ignores the thousands of documents he
handed over to the trustee, which constituted everything he possessed.
Regardless, it is undeniable that the Ninth Circuit weighed credibility and adversely decided issues
of fact in dispensing with petitioner's justifications
for recordkeeping when it should have left such determinations for trial where the issues could be appropriately fleshed out. Similar incorrect approaches
have been taken by the First Circuit (Harrington v.
Simmons (In re Simmons), 810 F.3d 852, 859 (1st
Cir. 2016)) and Eleventh Circuit (Protos v. Silver (In
re Protos), 322 Fed. Appx. 930, 935 (11th Cir. 2009).

13
The correct approach is that of the Fourth Circuit, illustrated in Mercantile. Peninsula Bank v.
French (In re French), 499 F.3d 345, 355-57 (4th Cir.
2007), which reversed a denial of discharge by the
bankruptcy court under section 727(a)(3) for failure
to correctly apply summary judgment principles. In
French, similar to here, the creditor argued that it
was "entitled to summary judgment on its inadequate records claim because French was a sophisticated debtor and thus should be held to a higher
standard." (Id. at 355.) Reversing the bankruptcy
court, the Fourth Circuit found that: "Although the
sophistication factor may be important in assessing a
denial of discharge under § 727(a)(3), whether
French was a sophisticated debtor was itself a contested fact, and such a finding does not, in any event,
justify an award of summary judgment." (Id.)
In a further echo of this case, the Fourth Circuit
also identified a genuine issue of material fact as to
"whether the records French disclosed would permit
the parties to reasonably, ascertain his financial condition." (Id. at 356.) The Fourth Circuit felt "constrained to disagree with the bankruptcy court, and
conclude that it erred... [because v]iewing the evidence in the light most favorable to French, a reasonable factfinder could find that the records produced by French were sufficient to permit an assessment of his financial condition." (Id.)
The Fourth Circuit's decision was no outlier. The
Bankruptcy Appellate Panel for the Tenth Circuit
has taken a similar view, reversing a denial of discharge under section 727(a)(3) in similar circumstances, albeit where the claims of justification were
far less credible than they are here. In Bailey v. Ogden (In re Ogden), 1999 Bankr. LEXIS 437, *17-18,

14
16 Colo Bankr Ct Rep 98 (10th Cir. B.A.P. 1999), it
held that:
"While the Debtor's assertions about his
record-keeping were not extensive and
would not likely be terribly convincing
at trial without further elaboration or,
even better, discovery and production of
the missing records, we believe they are
sufficient to raise a genuine issue of material fact about the adequacy of his records that precludes summary judgment,
at least since the records purportedly
cannot now be produced for review. The
Debtor's assertion that his records enabled him to know what was happening
with his business implies that others
could glean the same knowledge from
them... [T]he Debtor's opinion alone is
sufficient to get him to trial on the question; whether he will be believed at trial
is another matter, not properly considered at the summary judgment stage."
This line of authority sharply diverges with the
approach taken by the Ninth Circuit in this case.
The Court should accept review to resolve the split of
authority.
II. THIS CASE PRESENTS A RECURRING
QUESTION OF EXCEPTIONAL IMPORTANCE.

Section 727(a)(3) involves two nebulous standards. Before a debtor's justification is analyzed, it is
the objector's burden to establish that the debtor has
failed to keep adequate records "from which the
debtor's financial condition or business transactions
might be ascertained." Forty years of case law since

15
enactment of the Bankruptcy Code has proven this
standard to be highly subjective and uncertain. The
inconsistencies presented by lower court decisions
include the following:
Some courts hold that a failure to keep records
must make it "impossible to ascertain the debtor's financial condition" (Meridian Bank v. Alten,
958 F.2d 1226, 1232 (3d Cir. 1992)), while others
hold that it must merely make the exercise "unduly burdensome" (Nisselson v. Wolfson, 139 B.R.
279, 286 (Bankr. S.D.N.Y. 1992));4
Some courts hold that the objecting creditor
"must show how the missing recorded information 'might' enable a particular debtor's actual
financial condition or business transactions to be
ascertained under the circumstances of the case"
(Strzesynski v. Devaul (In re Devaul), 318 B.R.
824, 833 (Bankr. N.D. Ohio 2004); while others
are less exacting, and hold that creditors "should
not be required to speculate about the financial
condition of the debtor or hunt for the debtor's financial information" (Cadle Co. v. PrestonGuenther (In re Guenther), 333 B.R. 759, 765
(Bankr. N.D. Tex. 2005));5
In some courthouses, "checking account ledgers,
canceled checks, bank statements, and [an] in4 Here, the Bankruptcy Court applied an even lower bar, essentially stating that it did not matter whether respondent was ultimately capable of
getting to the bottom of petitioner's financial condition. See ER 321 ("the
justification, oh, the Trustee could have gotten it from somebody else
isn't a justification").
5 Here, petitioner's financial condition was self-evident. He had been
devastated financially, all his assets had been lost in foreclosure sales, and
the documents he provided showed that.

16
come tax return" are insufficient to preserve a
discharge (In re Juzwiak, 89 F.3d 424, 428 (7th
Cir. 1996)), while in others it is excusable to keep
no records at all (In re Oesterle, 651 F.2d 401,
405 (5th Cir. 1981));
Some courts find a genuine issue of material fact
over whether records are adequate when the
trustee contends that the documents provided by
the debtor "are not organized and do not permit
the trustee to reconstruct the debtor's financial
situation... [and further] contends that the debtor did not file tax returns." (Taunt v. Patrick (In
re Patrick), 290 B.R. 306, 312 (Bankr. E.D. Mich.
2003)), while others find no genuine issue of material fact in virtually identical circumstances
(Turoczy Bonding Co. v. Strbac (In re Strbac),
235 B.R. 880, 884 (B.A.P. 6th Cir. 1999)).
Debtors thus face a lamentable degree of unpredictability over the threshold issue of whether books
and records are inadequate. There are no safe harbors. Going into bankruptcy, debtors never know if
their books and records will be deemed organized
enough for others to understand their financial condition. Moreover, even if their records are adequately kept by the standards of most, they are menaced
by the possibility that a motivated plaintiff will present the records as inadequately kept anyway. Skillful rhetoric on this point can work. A debtor that
finds him or herself having to prove the negative that
he or she is not trying to hide something faces a difficult battle. That is arbitrary and unfair.
On top of this, there is no uniform formulation of
the standard for adequate recordkeeping that the
bankruptcy court will adopt, or what documents will

17
satisfy that standard on any given day. All of these
uncertainties heighten the need for the justification
prong of the statute to act as a more robust guarantor of the debtor's right to due process and presumptive entitlement to a discharge. But the case law
surrounding justification only convolutes the problem
further, as discussed above.
This will be a recurring issue. It will continue to
divide lower courts until clarity is provided by this
Court, and it will affect the hundreds of thousands of
Chapter 7 debtors each year in ways that will not
always manifest themselves in published, Circuitlevel authority. Impecunious debtors, especially
those who have not been allowed to wipe the slate
clean, will face great practical difficulty litigating
their way back to this Court when they encounter the
same injustice as petitioner, and they will be deprived of the benefits of the discharge for the considerable length of time it takes for the appellate process to play out. Accordingly, it is imperative that
the Court takes the opportunity to resolve this issue
now.
As it is essentially a moving target, section
727(a)(3) will continue to be an attractive proposition
for creditors, and a weak link in section 727's laudable goal of reserving a denial of discharge for only the
most unworthy. Petitioner is not in that class of unworthy debtors that should be left with the stigma of
a denial of discharge and without peace from creditors. "This Court has acknowledged that a central
purpose of the Code is to provide a procedure by
which certain insolvent debtors can reorder their affairs, make peace with their creditors, and enjoy 'a
new opportunity in life and a clear field for future effort, unhampered by the pressure and discourage-

18
ment of preexisting debt.' " Grogan v. Garner, 498
U.S. 279, 286, 111 S. Ct. 654, 659, 112 L. Ed. 2d 755,
764 (1991). As currently interpreted, section
727(a)(3) undermines that goal, undermines the important social function of the discharge, and allows
the honest but unfortunate debtor to be caught in a
capricious trap. As such, this case presents an issue
of exceptional importance that should be reviewed.
CONCLUSION
The petition for a writ of certiorari should be
granted. In addition to this being an opportunity to
resolve a split of Circuit-level authority on an issue of
exceptional public importance, it is an opportunity to
rectify a gross injustice against a very elderly man.
Petitioner provided thousands of pages of documents—everything in his possession—to respondent.
He has strong justifications, both general and specific, for any perceived inadequacies in his records that
he should be given the opportunity to try. Respondent, if she is confident that his justifications will not
pass muster, should have nothing to fear from such a
trial.
Respectfully submitted.
GERSON IRVING Fox
337 S. Roxbury Drive
Beverly Hills, California
90212
In Propria Persona
February 27, 2020

